BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Amy Triplett Morgan, hereby certify that 1 copy
of the foregoing Brief of Amici Curiae Securities and
Financial Markets Association and Chamber of
Commerce of the United States of America in Support
of Petitioners in 20-1364, Bofl Holding, Inc., et al., v
Houston Municipal Employees Pension System was sent
via Two Day Service to the U.S. Supreme Court, and
via Two Day and e-mail service to the following parties
listed below, this 29th day of April 2021:
John P. Stigi III
Counsel of Record
Sheppard, Mullin, Richter and Hampton LLP
1901 Avenue of the Stars
16th Floor
Los Angeles CA, 90067
(310) 228-3717
jstigi@sheppardmullin.com
Counsel for Petitioners
Richard Martin Heimann
Counsel of Record
Leiff Cabraser Heimann and Bernstein, LLP
275 Battery Street
29th Floor
San Francisco, CA 94111-3339
(415) 956-1000
rheimann@lchb.com
Counsel for Respondents

1

(800) 890.5001

8790 Governor's Hill Drive
Suite 102

www.beckergallagher.com

Cincinnati, Ohio 45249

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

Franklin Square
1300 I Street, NW, Suite 400E
Washington , DC 20005

Jonathan K. Youngwood
Counsel of Record
Craig S. Waldman
Joshua Polster
Daniel Owsley
Simpson Thacher &
Bartlett LLP
425 Lexington Avenue
New York, New York 10017
(212) 455-2000
Jyoungwood@stblaw.com
Ira D. Hammerman
Kevin Carroll
Securities Industry and Financial Markets
Association
1101 New York Ave., N.W.
Washington, D.C. 20005
Daryl Joseffer
Jennifer B. Dickey
U.S. Chamber Litigation Center
1615 H Street, NW
Washington, DC 20062-2000
Counsel for Amici Curiae

All parties required to be served have been
served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on April 29, 2021.

(1

T

)

ceJ-1A-

Amy Tri£lett Morgan
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

/lp'rQ) / o?-? ~

cJ-/

!j; ~d fl}c;&/ ~~~

Notary Public
[seal]

BIANCA BECKER

Notary Public, State of Ohio
My Commission Expires
February 14, 2023

